Steven M. Wilker
steven.wilker@tonkon.com
Admitted in California, Oregon, and
Washington
503.802.2040 direct
503.221.1440 main

May 18, 2021
Via Electronic Filing System
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
Re:

Gruber v. Oregon State Bar, No. 20-1520

Dear Mr. Harris:
I represent Respondents Oregon State Bar, Christine Costantino,1 and Helen
Hierschbiel in the case noted above. The Petition for a Writ of Certiorari was filed
on April 26, 2021 and docketed on April 30, 2021. Any brief in opposition is
presently due on June 1, 2021. Pursuant to Supreme Court Rule 30.4, Respondents
hereby request a 62-day extension to Monday, August 2, 2021 to consider whether
to file and, if so, to prepare and file a Brief in Opposition to the Petition for a Writ
of Certiorari in this action. Respondents make this request due to the prior
professional commitments of the attorneys involved on behalf of Respondents, the
added difficulties resulting from continued remote work due to COVID-19, and the
time needed to properly consider whether to respond and, if so, to prepare a
response to the Petition. Petitioner does not object to this Motion.
Thank you for your consideration.
Very truly yours,
s/ Steven M. Wilker
Steven M. Wilker
Attorneys for Respondents
SMW/jw
cc:

Michael L. Spencer, Counsel for Petitioners
W. Michael Gillette, Co-Counsel for Respondents
Elisa Dozono, Co-Counsel for Respondents
Meg Houlihan, Co-Counsel for Respondents
Paul Balmer, Co-Counsel for Respondents

1

Misspelled in Petition and below as “Constantino”.

